'.'/tei--'-

li'10/20! 9 9:44 AM
20-CC-2012-000172.61
. CIRCUIT COURT OF
COLBERT COUNTY, ALABAMA
MARK R.F.ADY, CLERK -

IN THE CIRCUIT COURT OF COLBERT COUNTY, ALABAMA
STATE OF ALABAMA
V.
WEEMS RONALD EUGENE 289449
Defendant.

)
)
) Case No.:
)
)
)

CC-2012-000172.61

ORDER
MOTION TO VACATE JUDGMENT filed by WEEMS RONALD EUGENE 289449 is hereby DENIED.
DONE this 10!hday of December, 2019.
/s/ JACQUELINE M. HATCHER
CIRCUIT JUDGE

XU

W'-

3
THE STATE OF ALABAMA - - JUDICIAL DEPARTMENT
THE ALABAMA COURT OF CRIMINAL APPEALS

CR-19-0465

Ronald Eugene Weems, Appellant
vs.
State of Alabama, Appellee,
Appeal from Colbert Circuit Court No. CC-12-172.61
ORDER
Ronald Eugene Weems appeals the circuit court's summary denial of his motion
to vacate judgment pursuant to Rule 60(b)(4), Ala. R. Civ, P., in which he alleged that
the circuit court's 2015 dismissal of his second Rule 32 petition is void.1 Specifically,
Weems argued that he was denied due process because he received ineffective
assistance of counsel during his previous Rule 32 petition and appeal from the
dismissal of that petition. Weems filed his motion on September 6, 2019, and the
circuit court denied the motion on December 10, 2019.
Rule 32.4, Ala. R. Crim. P., provides, in pertinent part, that "[proceedings under
this rule shall be governed, by the Rules of Criminal Procedure, except that the trial
court in its sole discretion may allow the taking of depositions for discovery or for use
at trial." Thus, Rule 60(b), Ala. R. Civ. P., has no application to a Rule 32
postconviction petition.
"'The right of appeal is wholly statutory and'is authorized in
criminal cases from a judgment of conviction.' McCray v. State. 46 Ala.
App. 588, 589, 246 So. 2d 475, 476 (Ala. Crim. App. 1971). 'Appeals lie
only from judgments of conviction, and then only on those counts upon
which there is a finding of guilt.' Thornton v. State. 390 So. 2d 1093,
1096 (Ala. Crim. App. 1980). 'An appeal cannot be taken-from an order

^eems filed a Rule 32 petition, his second, in 2014; the circuit court denied the
petition following an evidentiary hearing. This Court affirmed the denial on appeal by
unpublished memorandum. See Weems v. State. (CR-14-1094), 219 So. 3d 736 (Ala.
Crim. App. 2015)(table).

*/

' subsequent to the judgment of conviction unless authorized by statute.’
Harris v. State, 44 Ala. App. 632, 632,. 218 So. 2d 285, 286 (1969). All
statutes that authorize appeals are to be strictly construed. See Wood v.
Birmingham. 380 So.2d 394 (Ala. Crim. App. 1980)."
Dixon v. City of Mobile, 859 So. 2d 462, 463 (Ala. Crim. App. 2003). This Court knows
of no statute or rule that authorizes the appeal of a circuit court's denial of a Rule 60(b)
motion pertaining to a- postconviction petition.2 Additionally, the filing of a
p'ostjudgment motion does not extend the trial court's jurisdiction beyond 30 days 'after
the denial or dismissal of a petition for postconviction relief. See Logains v. State. 910
So. 2d 146 (Ala. Crim. App. 2005). As such, Weems's motion is not permitted, and the
denial of such a motion will not support an appeal. Accordingly, this appeal is due to
be, and is hereby, DISMISSED. It is further ordered that the certificate of judgment
issue forthwith.
Windom, P.J., and Kellum, McCool, and Cole, JJ., concur. Minor, J., dissents.

Done this 20th day of May, 2020.

MARYIB. W£NDOM, PRESIDING JUDGE
cc:

Hon. Jacqueline M. Hatcher, Judge
■ Hon. Mark R. Eady, Clerk
Ronald Eugene Weems
John J. Davis, Assistant Attorney General
Office of the Attorney General

2A challenge to the circuit court's handling of a previous Rule 32 petition was
not properly before the. circuit court and is not properly before this Court. Rather,
Weems should have raised such a claim after the circuit court denied his previous
petition and on appeal from that denial. See Wallace v. State. 959-So. 2d 1161, 1164
(Ala. Crim. App. 2006) ("[T]he proper avenue in which to challenge alleged errors in the
adjudication of the prior Rule 32 petitions is either to file a mandamus petition or to
appeal from the dismissal of those petitions rather than to file a new petition.").
2

■J.

COURT OF CRIMINAL APPEALS
STATE OF ALABAMA
MARY B. WINDOM
Presiding Judge
J. ELIZABETH KELLUM
J. CHRIS McCOOL
J. WILLIAM COLE
RICHARD J. MINOR
Judges

D. Scott Mitchell
Clerk
Gerri Robinson
Assistant Clerk
(334) 229-0751
Fax (334) 229-0521

June 4, 2020

CR-19-0465
Ronald Eugene Weems v. State of Alabama (Appeal from Colbert Circuit CourtCC12-172.61)

ORDER
The Court of Criminal Appeals ORDERS that the certificate of judgment issued by this
Court on May 20, 2020, be, and the same is hereby, recalled.
Done this the 4th day of June, 2020.

Mary B. Windom, Presiding Judge
Court of Criminal Appeals
cc: Hon. Jacqueline M. Hatcher, Circuit Judge
Hon. Mark R. Eady, Circuit Clerk
Ronald Eugene Weems, Pro Se
John J. Davis, Asst. Attorney General

c

COURT OF CRIMINAL APPEALS
STATE OF ALABAMA
D. Scott Mitchell
Clerk
Gerri Robinson
Assistant Clerk

P. O. Box 301555
Montgomery, AL 36130-1555
(334) 229-0751
Fax (334) 229-0521

August 7, 2020
CR-19-0465
Ronald Eugene Weems v. State of Alabama (Appeal from Colbert Circuit Court:
CC12-172.61)

NOTICE
You are hereby notified that on August 7, 2020, the following action was taken in the
above referenced cause by the Court of Criminal Appeals:
Application for Rehearing Overruled.

7). 'JtsfcM-fauU—
D. Scott Mitchell, Clerk
Court of Criminal Appeals
cc: Hon. Jacqueline M. Hatcher, Circuit Judge
Hon. Mark R. Eady, Circuit Clerk
Ronald Eugene Weems, Pro Se
John J. Davis, Asst. Attorney General

0

IN THE SUPREME COURT OF ALABAMA

September 11, 2020
1190955
Ex parte Ronald Eugene Weems. PETITION FOR WRIT OF CERTIORARI TO THE COURT
OF CRIMINAL APPEALS (In re: Ronald Eugene Weems v. State of Alabama) (Colbert
Circuit Court: CC-12-172.61; Criminal Appeals : CR-19-0465).

CERTiRCATE OF JUDGMENT
WHEREAS, the petition for writ of certiorari in the above referenced cause has been
duly submitted and considered by the Supreme Court of Alabama and the judgment indicated
below was entered in this cause on September 11, 2020:
Writ Denied. No Opinion. Sellers, J. - Parker, C.J., and Bolin, Wise, and Stewart, JJ.,
concur.
NOW, THEREFORE, pursuant to Rule 41, Ala. R. App. P„ IT IS HEREBY ORDERED
that this Court's judgment in this cause is certified on this date. IT IS FURTHER ORDERED
that, unless otherwise ordered by this Court or agreed upon by the parties, the costs of this
cause are hereby taxed as provided by Rule 35, Ala. R. App. P.
I, Julia J. Weller, as Clerk of the Supreme Court of Alabama, do hereby certify that the foregoing is
a full, true, and correct copy of the instrument(s) herewith set out as same appear(s) of record in said
Court.
Witness my hand this 11th day of September, 2020.

[}

£

V
Clerk, Supreme Court of Alabama

Additional material
from this filing is
available in the
Clerk's Office.

